                  13:27 FAX 301 903
     12.'6/0.2 ......
     ..                                       4656           CAPITAL REGION                                        1]003

 OE F f325.8

EFG (07.-0)


United States Government                                                                         Deparment of Energy


memorandum
               DATE:         05 2002
      REPLY TO:        IG-34 (A02AT015)                                       Audit Report Numbser: OAS-L-03-04

       SUBJECT:        Follow-Up Audit on Internet Privacy
                 TO:   Chief Information Officer, IM-1

                                                                                                   review of the
                       The purpose of this report is to inform you of the results of our follow-up
                                                                             This  review  was performed  from
                       Department of Energy's Internet Privacy initiatives.
                       June 2002 to October 2002 at Department Headquarters. The review methodology is
                       described in the attachment to the report.

                       INTRODUCTION AND OBJECTIVE
                                                                                                        public
                       Department and OMB guidance expressly prohibit the collection of data fiom
                       Internet web site visitors through the use of unapproved or undisclosed methods. For
                       example, persistent cookies are not allowed on any Department Internet w-b page
                       unless specifically approved by the Secretary. Persistent cookies are techrlologies used
                       to collect data from public web site visitors that remain on the visitor's comrputer even
                        after it is completely shut down. A very small number of Department wel: pages
                       possess Secretarial or equivalent approval to use persistent cookies. Additionally,
                        OMB regulations require that web pages conspicuously post privacy notic es containing
                        clear and unambiguous language that explains data collection techniques and the
                        ultimate use of visitor data.

                        In February 2001, the Office of Inspector General issued the Audit on Internet Privacy
                        (DOE/IG-0493) that evaluated whether the Department's method of collecting data
                        from its public web site visitors was consistent with applicable Federal Regulations.
                        Our review disclosed that some web pages were collecting data by unapproved or
                        undisclosed means and a number of web pages did not display conspicuo:.sly located or
                        clearly written privacy notices.

                        Web page privacy control weaknesses occurred in a number of instances l:ecause the
                        Department lacked clear and current implementing guidance and did not p:rovide
                        consistent oversight of site development and operation. As a result, the Department
                        could not ensure that the privacy of its web page visitors was properly prctected in all
                        instances as required by Federal privacy regulations.

                        To ensure privacy of Departmental web page visitors, we made a number of
                        recommendations designed to enhance privacy measures within the Department. Most
                        significantly, we recommended the review of all publicly accessible web ;ites for
                        compliance with Federal requirements and the adoption of meaningful In:emet privacy-
                         specific performance measures.
12/!6/02     13:28 FAX 301 903 4656               CAPITAL REGION                                         I004




           To gauge the effectiveness of corrective measures, we conducted a targeted follow-up
           audit to determine whether persistent cookies were still being used on Depe rtment web
           sites.

           CONCLUSIONS AND OBSERVATIONS

           Our follow-up review did not reveal any persistent cookies on the 20 randomly selected
           Department web pages that we tested. These test results are consistent withi the
           Department's actions to implement our earlier recommendations.

           Specifically, we found that:

               1. Prior to our test work, the Department tested approximately 4000 web pages for
                  persistent cookies and adequate privacy notices. As a result oftho!:.e tests, the
                  Department found a small number of web pages using persistent cookies. The
                  Department immediately removed the cookies, and subsequently confirmed that
                  they had been removed.

               2. The Department also developed a catalog listing web pages and implemented a
                  process to periodically test a sample of sites listed in the catalog fo:r compliance
                  with Departmental and OMB guidance.

                3. The Secretary issued a memorandum, dated May 22, 2001, that addressed
                   Internet privacy requirements and the Department drafted a new Notice that
                   addresses publicly accessible web servers and includes a section on privacy.

            While the Department had made significant progress toward implementing our
            recommendations, we found that it has not yet adopted meaningful Internet privacy-
            specific performance measures. According to an official in the Office of the Chief
            Information Officer, they were considering various altematives but had nct yet
            determined a suitable method for measuring performance specific to Internet privacy.

            We continue to believe that meaningful performance measures are a nece, sary
            management tool for ensuring privacy of Departmental web page visitors.
            Accordingly, we reaffirm our previous recommendation that the Departmi:nt adopt
            measures specific to Internet privacy.

            We appreciate the cooperation of your staff throughout the audit.



                                                                    ckey. Hass, Director
                                                                  Science, Energy, Technology,
                                                                   and Financial Audits
                                                                  Office of Audit Services
                                                                  Office of Inspector General
12/C6/02     13:28 FAX 301 903 4656             CAPITAL REGION                             ] 005




           cc: Director, Office of Independent Oversight and Performance Assurance, OA-1
12/0'6/02     13:28 FAX 301 903 4656                 .CAPITAL REGION                                            i 006




                                                                                        ATTACHMENT


            SCOPE AND METHODOLOGY

            To accomplish the audit objective, we:
                                                                          web pages to establish a
                    *    Identified and reviewed a list of the Department
                         universe of Department web sites to be tested;
                                                                               the U.S. Arny Audit
                    *     Selected a sample of 20 Department web sites using
                                                                             6.3);
                          Statistical Sampling Software application (version
                                                                      pages for persistent cookies.
                        . Tested the randomly selected Department web
                                                                                                  discussing
                                                     Office of the Chief Information Offi,:;er
             We also met with an official in the                            and the results tc  date of those
             actions taken to implement our earlier recommendations
             actions.
                                                                         accepted Governm nt auditing
             The audit was conducted in accordance with generally
                                                                                                 compliance
             standards for performance audits and included tests of internal controls and
             with laws and regulations to the extent necessary to satisfy      the audit objective. Because
                                              audit, we  did not reassess  internal  controls but rather
              of the nature of our follow up
                                                                earlier audit. Due to the limited nature
              relied on the assessment performed during the
                                                                         all internal control deficiencies
              of our review, it would not necessarily have disclosed relied on computer-processed data
              that may have existed at the time of our audit. We
                                                                   detecting software to accomplish our
              in the form of statistical analysis and web cookie
                                                                       this data, sufficient ':o satisfy our
               audit objective. We performed limited validation of
               audit objective.
                                                                              Headquarters cfficials.
               An exit conference was waived by cognizant Department
12/C./02     13:29 FAX 301 903 4656.   CAPITAL REGION   ]007




           bcc: Sandy Parnes, IG-1
DOE F 13325.B                                                                                    CALd-
EFO (07-0)


United States Government                                                                     !')epartmentof Energy

Memorandum
             DATE:   DEC 05 2002
     REPLY TO:       IG-34 (A02AT015)                                     Audit Report Number: OAS-L-03-04
      SUBJECT:       Audit Report on "Follow-Up Audit on Internet Privacy"

               TO:   Team Leader, Audit Liaison Team, ME-2


                     This report follows up on our earlier "Audit on Internet Privacy" (DOE/IG-0493). Our
                     follow-up found that corrective action has not been completed for one of our earlier
                     recommendations that has already been closed in the Departmental Audit Report
                     Tracking System (DARTS). Accordingly, the report reaffirms the earlier
                     recommendation that should be reopened in DARTS and tracked until action is
                     completed.

                     We appreciate your cooperation.




                                                                        Freeric     . Doggett
                                                                        Deputy Assistant Ini:spector General
                                                                         for Audit Services
                                                                        Office of Inspector General

                     cc: Audit Liaison, IM-10


                     Attachment
                                 Department of Energy
                                      Washington, DC 20585
                                      December 24, 2002




MEMORANDUM FOR WILLIAM S. MAHARAY
               ASSISTANT INSPECTOR GENERAL FOR
               AUDIT SERVICES

FROM:            6n RICHARD  H. HOPF, DIRECTOR
                    OFFICE OF PROCUREMENT                                             T   CE
                         MANAGEMENT, OMBE

SUBJECT:                 FOLLOW-UP AUDIT OF THE DEPARTMENT'S MANAGEMENT
                         OF FIELD CONTRACTOR STAFF ASSIGNED TO THE
                         WASHINGTON, D.C. AREA (DOE-IG-0414).

                                                                 Hancock and Mr. John Moynihan
On November 21, 2002, an exit briefing was held by Mr. Ron
                                                         audit. I am pleased to hear that you are
to present the results of the recently completed subject
                                                                         IG-0414 report
satisfied that we have taken the necessary steps to satisfy the previous
                                                                (DOE)  has improved its
recommendations and believe that the Department of Energy
management of contractors assigned to Headquarters.
                                                                        I understand that it will
While your letter report will not make any formal recommendations,
                                                        with the first suggestion to review and
provide a few suggestions for consideration. I concur
                                                                   support personnel and determine
evaluate the duties performed by field contractor administrative
                                                                                          using
whether these administrative support services could be acquired more economically
                                                                      managers    that, when
alternative contracting methods. My office plans to notify account
                                                                  and related costs should be
considering approval for these assignments, alternative sources
                                                                             that, for a contractor
considered prior to approval. Additionally, I concur with the suggestion
                                                                           should identify each
assignment which is funded by more then one organization, the system
                                                          from each office. We are in the process
program office and the percentage of funding provided                            identify multiple
 of making database system improvements that will provide the capability to
                                                                    account administrators will be
 funding sources for each assignment. Once completed, database
                                                                                  from multiple
 directed to update their respective accounts and, where an assignee is funded
                                                                       in proportion to the total cost
 sources, to identify each organization and their funding percentage
                                                                       costs by individual
 of the assignment. The second modification, to accumulate annual
                                                                                Currently, the
 Headquarters organizations, will be discussed with program organizations.
                                                                          monthly costs of current
  database is capable of calculating aggregate annual costs and average
  assignments.




                                              Primned with soy Inkon recycled paper
Finally, I would like to commend your team leader Mr. Ron Hancock and Mr. John Moynihan for
their professionalism and expeditious manner in which they performed the follow-up audit. It
was apparent from the onset that the follow-up audit was focused on obtaining verification of our
improvements while causing minimal impact to staff resources. Unless notified by your office,.
we will consider the audit closed and associated actions completed.


cc: Hass, Rickey R., IG-34
    Doggett, Frederick D., IG-32
     12/12/02             16:54 FAX 301 903 4656              CAPITAL REGION                                         L002

DOE F 1325.
  (8-89)
EFG(07-90)

United States Government                                                                           Department of Energy


 Memorandum
                  DATE       DEC 12 2002
              REPLY TO:    IG-331 (A02AT015)
              SUBJECT:     Final Report Package for "Follow-Up Audit on Internet Privacy"
                           Audit Report No.: OAS-L-03-04

                    TO:     Frederick D. Doggett, Deputy Assistant Inspector General for Audit Services


                            Attached is the required final report package on the subject audit. The pertinent details are:

                            1. Actual Staff days: 12

                               Actual Elapsed days: 90

                            2. Names of OIG and/or contractor audit staff:

                                   Assistant Director:     George W. Collard
                                   Team Leader:            Ron Hancock
                                   Auditor-in-Charge:      Dick Marvin
                                   Audit Staff:            (None assigned).

                            3. Coordination with Investigations and Inspections:
                               Due to the nature of this follow-up audit, Investigations and Inspections were not contacted.




                                                                          Rickey R. Hass, Director
                                                                          Science, Energy, Technology,
                                                                           and Financial Audits
                                                                          Office of Audit Services
                                                                          Office of Inspector Gene:ial

                            Attachments:
                            1. Final Report (3)
                            2. Monetary Impact Report
                            3. Audit Project Summary Report
                            4. Audit Database Information Sheet
12/12/02        16:56 FAX 301 903 4656                  CAPITAL REGION                                               @ 009




                                                                                                         Attachment 2


                              MONETARY IMPACT OF REPORT NO.: OAS-L-03-04


         1. Title of Audit:     Follow-Up Audit on Internet Privacy

         2. Region/Office:      Science. Energy, Technology, and Financial Audits

         3. Project No.:        A02AT015

         4. Type of Audit:

                 Financial:                                        Performance:          X
                    Financial Statement                              Economy    and Efficiency            X
                    Financial Related                                Program Results
                 Other (specify type):

  5.
                                                                                                          MGT.     POTENTIAL
                FINDING                   BETTER USED                      QUESTIONED COSTS             POSITION    BUDGET
                                                                                                                    IMPACT
                                               Recurrin _____
                                  (C)    (D)      (E)       (F)        (G)           (H)         (I)       (J)        (K)
   (A)               (B)                                                                                             Y=Yes
                    Title        One    Amount   No.       Total    Questioned   Unsupported    Total   C=Concur
                                 Time     Per    Yrs.    Amount      Portion       Portion              N=Noncon     N=No
                                          Year                                                          U-Undec

          N/A                                            N/A                                   N/A




   TOTALS-ALL FINDINGS           SO     s
                                        $0               s0          0           $0            $0S




    6. Remarks: There is no current monetary impact or potential future savings.

    7. Contractor:                                      10. Approvals:
    8. Contract No.:                                          Division Director
                                                              & Date
     9. Task Order No.:                                        Technical Advisor &
                                                              Date
  12/12/02      16:56 FAX 301 903 4656                                CAPITAL REGION                                  io010

                                                Office of the Inspector General (OIG)
                                           Audit Project Office Summary (APS)
                                                                                                                     Page 1

Report run on:                     December 9, 2002 9:49 AM


  Audit#: A02AT015                 Ofc:   ATA     Title: FOLLOW-UP ON INTERNET PRIVACY

                                                               ****     Milestones ***
                                                  ---            --      Planned ----------------
                                                                         P--                                Actual
                                                 Profile              End of Survey         Revised
                                                                       10-SEP-02         10-SEP-02       10-SEP-02
   Entrance Conference:                         10-SEP-02

   Survey Completed:
   Field Work Complete:
   Draft Report Issued:
   Exit Conference:
   Completed with Report:                       31-OCT-02
                                                                                                              90
                                                                                                              90
   ---------    Elapsed Days                             51
   ----------     Staff Days:                             0                     0

   Date Suspended:                                                Date Terminated:
   Date Reactivated:                                               Date Cancelled:
    DaysSuspended(Cur/Tot):                      0 (             ) Report Number:
   Rpt Title:

                                                  ****    Audit Codes and Personnel ****


    Aud Type:            Not       Found
                         Not       Found                                       AD:             Not Found
    Category:
    DOE-Org:             Not       Found                                       AIC:     630    MARVIN
    Maj Iss:             Not       Found                                       HDQ-Mon:        Not Found

    Site:                Not Found                                             ARM:      459   COLLARD

                                                               S**
                                                                Task Information ****

           Task No:
           Task Order Dt:                                             CO Tech. Rep:
           Orig Auth Hrs:                                             Orig Auth Costs:
            Current Auth:                                             Current Auth Cost:
            Tot Actl    IPR Hr:                                       Tot Actl Cost:


                                                              S***    Time Charges ***

                       Emp/Cont Name                Numdays                 Last Date

                       MARVIN, R                         11.6               30-NOV-02

                       LTotal:                           11.6

                               "                          r***        ATC Information **

    t. Ate      Ate Rank
                     ·- ·-·-       Atcdesc
12/12/02 _16:57 FAX 301 903 4656              CAPITAL REGION                                     1O011




                                                                                      Attachment 4

                         AUDIT DATABASE INFORMATION SHEET


      1. ProjectNo.: A02AT015

      2. Title of Audit: Follow-Up Audit on Internet Privacy

      3. Report No./Date: OAS-L-03-04, December 5, 2002

      4. Management Challenge Area: Information Technology

      5. Presidential Mgmt Initiative: N/A

      6. Secretary Priority/Initiative: N/A

      7. Program Code: MA

      8. Location/Sites: Headquarters

      9. Finding Summary:

          While the Department had made significant progress toward implementing our earlier
          recommendations, we found that it has not yet adopted meaningful Intern•t privacy-specific
          performance measures. According to an official in the Office of the Chie' Information
          Officer, they were considering various alternatives but had not yet determined a suitable
          method for measuring performance specific to Internet privacy. We continue to believe that
          meaningful performance measures are a necessary management tool for ensuring privacy of
          Departmental web page visitors. Accordingly, we reaffirm our previous recommendation
          that the Department adopt measures specific to Internet privacy.

       10. Keywords:

          * Cookies
          * Internet
          *    Privacy
          *    OMBE
          *    ME
           *   MA
           * Follow-up
           *   Performance
      12/06/02         13:27 FAX 301 903    4656          CAPITAL REGION                                        ]002
DOE F ý25.8,

EPG (07-90)



United States Government                                                                     Department of Energy


 Memorandum
              DATE:   DEC 0 5 2002
      REPLY TO:       IG-34 (A02AT015)                                     Audit Report Numb i;r: OAS-L-03-04
       SUBJECT:       Audit Report on "Follow-Up Audit on Internet Privacy"

                TO:   Team Leader, Audit Liaison Team, ME-2


                      This report follows up on our earlier "Audit on Internet Privacy" (DOE/IG.-0493). Our
                      follow-up found that corrective action has not been completed for one of oar earlier
                      recommendations that has already been closed in the Departmental Audit Report
                      Tracking System (DARTS). Accordingly, the report reaffirms the earlier
                      recommendation that should be reopened in DARTS and tracked until action is
                      completed.

                      We appreciate your cooperation.




                                                                         Fre eric    . Doggett
                                                                         Deputy Assistant Inspector General
                                                                          for Audit Services
                                                                         Office of Inspector General

                      cc: Audit Liaison, IM-10.


                      Attachment
